                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 
                 




                        Review of Hotline Complaint
                        Regarding Residential Soil
                        Contamination in Cherryvale,
                        Kansas
                        Report No. 13-P-0207                    March 28, 2013




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:	                              Chad Kincheloe
                                                   Jill Trynosky
                                                   Jenny Drzewiecki
                                                   Barry Parker
                                                   Tina Lovingood




Abbreviations

ATSDR         Agency for Toxic Substances and Disease Registry
EPA           U.S. Environmental Protection Agency
KDHE          Kansas Department of Health and Environment
OIG           Office of Inspector General
OSC           On-Scene Coordinator
QAPP          Quality Assurance Project Plan


Cover photo: Heavy equipment removing contaminated residential soil in Cherryvale, Kansas.
             (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov.                     write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm.                Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                     13-P-0207
                                                                                                               March 28, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review                 Review of Hotline Complaint Regarding Residential
The U.S. Environmental
                                       Soil Contamination in Cherryvale, Kansas
Protection Agency (EPA) Office
of Inspector General (OIG)              What We Found
received a hotline complaint
alleging that residential properties   EPA Region 7 screened residential properties for soil contamination during its
near the former National Zinc          2001–2002 removal activities near the former National Zinc Company smelter, but
Company smelter, Cherryvale,           could not provide us with complete documentation for all properties. We found over
Kansas, were not addressed by          35 residential properties with lead contamination that, according to samples taken
previous cleanup activities. We        during the 2001–2002 removal action, exceeded the action level. However, it was
sought to determine whether            unclear which of these properties were excavated because some EPA records
EPA’s actions identified and           were missing or incomplete. Over a 6-month period, we made over 10 separate
addressed all residential              inquiries for the missing information. After receiving our draft report, Region 7
properties contaminated with           provided some of the missing information. Despite the new information, there are
heavy metals that presented an         still inconsistencies and gaps in the site records. For example, in contrast to
imminent and substantial threat        positions stated earlier in our review, Region 7 now says that some properties with
to the public health.                  contamination at or above the action level were not excavated based on
                                       discussions with property owners and the State of Kansas. Without complete
The National Zinc Company site         documentation, neither EPA nor the OIG can confirm EPA’s assertion that all lead
was once the location of a lead        contamination presenting an imminent and substantial endangerment to public
and zinc smelter. In March 2001,       health at this site was fully identified and addressed. As a result, we cannot confirm
a state evaluation determined          or dismiss the allegations raised in the complaint.
that soils at residential properties
adjacent to the site were               Recommendations and Planned Agency Corrective Actions
contaminated with heavy metals,
including lead. EPA classifies         We recommend that Region 7 review all site records and documents to determine
lead as a probable human               whether there is an imminent and substantial endangerment to public health at the
carcinogen and a cumulative            National Zinc Company site. To support this determination, Region 7 should revise
toxicant. Although the effects of      or prepare an addendum to the Removal Action Summary Report that contains an
lead exposure are a concern for        accurate and complete account of EPA activities at the site as well as fully
all humans, young children are         document and timely communicate any actions taken to the public. We further
particularly at risk.                  recommend that, as needed, Region 7 work with the State of Kansas to ensure
                                       appropriate action is taken to respond to any imminent and substantial
This report addresses the              endangerment to public health at the site. In addition, we recommend that Region 7
following EPA Goal or                  document the costs to develop and implement the work necessary to address our
Cross-Cutting Strategy:                recommendations.

  Cleaning up communities             Region 7 disagreed with recommendation 1. It believes that it has addressed all
   and advancing sustainable           imminent and substantial endangerment at residential properties that met removal
   development.                        action criteria. Because the region was unable to provide us with the information
                                       necessary to confirm its assertion, this recommendation is unresolved. After we
For further information, contact       provided additional clarification, Region 7 agreed with recommendation 2. It also
our Office of Congressional and
                                       agreed with recommendation 3. However, the region did not include planned
Public Affairs at (202) 566-2391.
                                       completion dates along with its planned corrective actions for these
The full report is at:                 recommendations. Therefore, all three recommendations are unresolved. Region 7
www.epa.gov/oig/reports/2013/          will have an additional opportunity to provide information in response to this report.
20130328-13-P-0207.pdf                 The OIG and Region 7 should begin the resolution process immediately.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL


                                           March 28, 2013

MEMORANDUM


SUBJECT:	 Review of Hotline Complaint Regarding Residential Soil Contamination in
          Cherryvale, Kansas
          Report No. 13-P-0207


FROM:          Arthur A. Elkins Jr. 



TO:	           Karl Brooks, Regional Administrator
               Region 7


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the EPA position. This
report contains the intended corrective actions for two recommendations. These
recommendations are considered unresolved, pending receipt of estimated completion dates.
In addition, the report contains one recommendation that Region 7 and OIG are in disagreement
with. This recommendation is also considered unresolved.

Action Required

In accordance with EPA Manual 2750, resolution should begin immediately upon issuance of the
report. We are requesting a meeting between the Regional Administrator for Region 7 and the
Assistant Inspector General for Program Evaluation to start the resolution process and attempt to
obtain resolution. If resolution is still not reached within 30 days, the Regional Administrator for
Region 7 is required to complete and submit the dispute resolution request to the Chief Financial
Officer to continue the resolution process. We have no objections to the further release of this
report to the public.

If you or your staff has any questions regarding this report, please contact Carolyn Copper at
(202) 566-0829 or copper.carolyn@epa.gov, or Tina Lovingood at (202) 566-2906 or
lovingood.tina@epa.gov.
Review of Hotline Complaint Regarding                                                                                        13-P-0207
Residential Soil Contamination in Cherryvale, Kansas


                                   Table of Contents 


Chapters
   1     Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Scope and Methodology..............................................................................                3


   2	    Imminent and Substantial Endangerment May Not Be 

         Fully Identified or Addressed ...........................................................................                  5


                 EPA Unable to Provide Information Needed to Confirm
                      Risk Reduction ..................................................................................             5

                 EPA Cannot Provide Assurance Its Sampling Followed
                      Proper Procedures ............................................................................                8

                 Conclusion...................................................................................................      9     

                 Recommendations ......................................................................................             9

                 Agency Response and OIG Evaluation .......................................................                        10 


   Status of Recommendations and Potential Monetary Benefits..............................                                         12




Appendices
   A     EPA Region 7 Comments to Draft Report and OIG Evaluation......................                                            13


   B     Distribution .........................................................................................................    17

                                  Chapter 1

                                  Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA) Office of Inspector General
            (OIG) received a hotline complaint about the National Zinc Company site in
            Cherryvale, Kansas. Based on our review of the complaint, we focused on EPA’s
            2002 Time-Critical Removal Action (performed from November 2001 to May
            2002). We addressed the following question:

                   Did EPA’s 2002 Removal Action and oversight activities at the
                   National Zinc Company site in Cherryvale, Kansas, fully identify
                   and address site-related and unsafe heavy metal contamination?

Background
            The National Zinc Company site in Cherryvale was once the location of a lead
            and zinc smelter. The smelter was operational from 1898 to 1976. In the late
            1970s, the owners performed some cleanup work to remove contamination. A
            restrictive covenant was established in 1983 and governs the site with land use
            restrictions.

            Beginning in 1999, several investigations of the National Zinc Company site were
            performed by the Kansas Department of Health and Environment (KDHE) to
            determine the extent of the contamination. It was discovered that approximately
            360 acres surrounding the former smelter plant were contaminated above the risk-
            based standards. The contamination consisted of heavy metals, particularly lead,
            cadmium, arsenic, and zinc. Based on a 2001 KDHE evaluation, EPA identified
            lead as the greatest concern for human health. At the residential properties
            adjacent to the smelter, EPA determined there was a potential for ingestion
            exposure to lead in the top layers of the soil.

            According to EPA, lead is a naturally-occurring element that can be harmful to
            humans when ingested or inhaled, particularly children under the age of six. Lead
            poisoning can cause a number of adverse human health effects, but is particularly
            detrimental to the neurological development of children. EPA classifies lead as a
            probable human carcinogen and a cumulative toxicant. According to the Agency
            for Toxic Substances and Disease Registry (ATSDR), the effects of lead are the
            same whether it enters the body through breathing or swallowing. Lead can affect
            almost every organ and system in the body. A 2007 ATSDR lead fact sheet states
            that exposure to high lead levels can severely damage the brain and kidneys in
            adults or children and ultimately cause death.


13-P-0207                                                                                     1
                  In March 2001, KDHE began identifying residential properties1 adjacent to the
                  former National Zinc Company smelter with lead contamination at or above what
                  is considered protective of human health and the environment.2 In August 2001,
                  KDHE requested EPA’s assistance in addressing imminent and substantial threats
                  to public health at the site.3 The EPA On-Scene Coordinator (OSC) for the site
                  issued an Action Memorandum (Action Memo).

                  The Action Memo requested approval and funding from EPA for a Time-Critical
                  Removal Action4 at the site. It stated that the actual release of a hazardous
                  substance at this site, if not addressed by implementing the response actions,
                  presented an imminent and substantial endangerment to the health of the public
                  that came into contact with the site and to public welfare and the environment.
                  The Action Memo also included a recommendation that immediate response
                  actions be taken to reduce potential exposure. It stated the primary objectives of
                  EPA’s actions at the site were to eliminate or reduce potential ingestion exposure
                  due to the presence of lead in the soils.

                  EPA Time-Critical Removal Activities

                  EPA’s Time-Critical Removal Activities took place from November 2001 to
                  May 2002. According to the Action Memo, EPA’s removal activities were to
                  address imminent and substantial endangerment to public health at residential
                  properties where the soil contained lead concentrations equal to or greater than
                  400 mg/kg. For all properties where EPA intended to conduct sampling, Region 7
                  staff stated that they notified residents and land owners by letter and in door-to-
                  door visits.

                  In accordance with EPA requirements, removal activities at the site were to
                  follow a Quality Assurance Project Plan (QAPP). The QAPP documented the
                  planning, implementation, and assessment procedures. Specific quality assurance
                  and quality control activities were also included. EPA’s QAPP for this removal
                  included the following details:

                          Sample collection will be in the upper 1 inch of soil and will be screened
                           for lead.
                          Samples will be collected 50 feet from each side of the home.
                          Samplings will also include play areas and gardens, sand piles, unpaved
                           driveways, and other areas appearing to have been used by children.


1
  In site documents, EPA and KDHE refer to residential properties as residential yards. 

2
  The KDHE residential Risk-Based Standard for Kansas level for lead contamination is 400 mg/kg. The Risk-Based
	
Standards for Kansas provide guidance on the process for establishing chemical-specific and site-specific cleanup 

goals for soil, groundwater, and indoor air that are protective of human health and the environment. 

3
  In this report, the term “site” includes the residential properties adjacent to the former National Zinc Company 

smelter buildings. 

4
  Time-critical removals are initiated when the lead agency determines on the basis of a site evaluation that an action
	
is appropriate and must be initiated within 6 months.
	


13-P-0207                                                                                                             2
                     	 Results of sampling and analysis will be used to direct excavation
                        activities for the removal of lead-contaminated soil above the Risk-Based
                        Standard for Kansas level of 400 mg/kg.
                     	 Excavation of lead-contaminated areas will be conducted up to a
                        maximum depth of 12 inches below ground surface, except in high-use
                        areas or areas frequented by children, where excavation will be conducted
                        up to a maximum depth of 24 inches.

                 Once the removal began, EPA and KDHE conducted additional removal
                 assessments at residential properties. As a result, the removal was expanded from
                 the originally identified residences. A 35-acre residential area known as the
                 “Rodeo Grounds” was also included. EPA reported that approximately 76,000
                 cubic yards of soil were removed from residential properties.5

                 Potentially Responsible Parties Have Been Identified

                 In April 2003, KDHE entered into a consent order with Citigroup Global Market
                 Holdings, Inc.6, and United States Steel Corporation, which were both identified
                 as potentially responsible parties. The consent order includes investigative,
                 mitigation, and corrective measures at the site that are still being performed to
                 date. Residential properties adjacent to the site were excavated by the potentially
                 responsible parties in May and June 2012. In recent letters to property owners,
                 KDHE stated that it “will continue to work with the [potentially responsible
                 parties] for the National Zinc Site to conduct additional activities to address the
                 actual and potential environmental issues associated at properties where waste is
                 observed.”

                 In March 2009, EPA entered into a consent decree with the two potentially
                 responsible parties. The consent decree required the two potentially responsible
                 parties to pay a total of $1 million, plus accrued interest, for EPA’s site-related
                 response costs at the National Zinc site.

    Scope and Methodology
                 We performed our review from August 2012 to January 2013 in accordance with
                 generally accepted government auditing standards. Those standards require that
                 we plan and perform our review to obtain sufficient, appropriate evidence to
                 provide a reasonable basis for any findings and conclusions based on our
                 objectives. We believe the evidence obtained provides a reasonable basis for the
                 observations presented in this report.



5
  As described in chapter 2 and the Scope and Methodology, the total number of residential properties where 

excavation took place cannot be confirmed. 

6
  When the 2003 consent order was signed, Citigroup Global Market Holdings, Inc., was known as Salomon Smith
	
Barney Holdings, Inc. 



13-P-0207                                                                                                    3
                  We reviewed OIG hotline complaint information. We reviewed laws, regulations,
                  policies, procedures, and guidance relevant to the EPA Time-Critical Removal
                  Action. We interviewed EPA Region 7 staff and managers as well as a KDHE
                  section manager previously involved with the EPA removal action. We reviewed
                  Region 7 site records and files documenting EPA’s actions during the removal.
                  We also interviewed EPA officials and staff in the Office of Emergency
                  Management, which is part of the Office of Solid Waste and Emergency
                  Response, regarding the removal process for lead contaminated soil. In September
                  2012, we visited the site to gain an understanding of the location, characteristics,
                  and present conditions. The primary focus of our review was the residential
                  properties associated with the site. We did not conduct an in-depth review of the
                  site documents for removal activities at the Rodeo Grounds.

                  We encountered limitations in the site documents we reviewed. We cannot
                  provide a total number of properties EPA sampled or excavated. The total number
                  of residential properties EPA sampled is not provided in any site document.
                  Counting property addresses that appear in site documents resulted in a total of
                  67 properties sampled, but we could not confirm that number. Region 7 staff told
                  us and stated in reports (Pollution Reports and the Removal Action Summary
                  Report) that lead-contaminated soil was removed from 35 residential properties.
                  Region 7 also stated this in a letter to a member of Congress. However, for the
                  following reasons, neither count (35 properties excavated and 67 properties
                  sampled) can be confirmed because:

                      	 EPA Pollution Reports do not include:
                           o	 Addresses of the properties for verification.
                           o A total number of properties sampled. 

                       EPA’s 2002 Removal Action Summary Report does not include: 

                           o	 A conclusive list of properties where sampling occurred and where
                               contaminated soil was removed.
                           o	 Hand-written field notes with supporting documentation for all
                               properties.
                           o	 Information on all properties that tested at or above the action level
                               during the Removal Site Evaluations.7




7
 Removal Site Evaluations for the Cherryvale Residential Yards Site from March 2001 evaluated and identified
11 residential properties with lead-contaminated soil at or above the risk-based action level. Removal Site
Evaluations for the Cherryvale Residential Yards Site from March 2002 identified an additional 23 residential
properties with lead-contaminated soil at or above the risk-based action level. The report states that a total of
37 additional properties were evaluated.


13-P-0207                                                                                                           4
                                   Chapter 2

            Imminent and Substantial Endangerment 

            May Not Be Fully Identified or Addressed 

             EPA Region 7 screened residential properties for soil contamination during its
             2001–2002 removal activities, but could not locate or provide us with complete
             documentation identifying the specific locations of properties excavated or
             sampled. EPA site documents contain details about pre-excavation and post-
             excavation sampling results. However, these documents are incomplete. Region 7
             also could not provide all field notes containing sampling information. Moreover,
             there are gaps in existing documentation related to properties with contamination
             at or above the risk level for lead. As a result, neither EPA nor the OIG can
             confirm that all contaminated properties at this site were properly identified and
             that imminent and substantial endangerment to the health of the public from lead
             contamination in residential soil was fully addressed.

EPA Unable to Provide Information Needed to Confirm Risk Reduction
             Region 7 could not provide supporting documentation to demonstrate that all
             sampling and removal actions were properly completed for all properties. When
             we started our work in August 2012, Region 7 staff sent a request to the EPA
             records center to locate and pull the logbooks, original field sheets, and photos for
             this removal action. After several inquiries on when the information would be
             available, we asked Region 7 to provide us, by October 31, 2012, the supporting
             documentation to answer our questions about the number of properties excavated
             and the missing documentation. We also requested the final pollution report,
             which was not included in the site file. Region 7 was able to provide us with the
             final pollution report but did not provide the other information requested by our
             deadline.

             After our deadline passed, we told Region 7 that if the documentation necessary
             to respond to our questions turned up before we finished our assignment we
             would review it. Region 7 had at least four additional opportunities to provide the
             documentation, including during a meeting with senior regional staff before we
             planned to issue our final report. Over 6 months, we made over 10 inquiries about
             the information. We were told by Region 7 staff that they could not locate the
             information we requested. EPA Region 7 staff said that the delays in the region’s
             search for information occurred because of the length of time that had passed
             since the removal activities; the physical move of the regional records center from
             Kansas City, Kansas, to Lenexa, Kansas; and other competing regional priorities.

             In response to a June 2012 congressional inquiry, the Region 7 Administrator
             stated that EPA excavated contaminated soil from 35 residences and backfilled


13-P-0207                                                                                        5
                 and reseeded these lots. However, we asked Region 7 for additional information
                 to confirm this number in September 2012. Region 7 could not produce a
                 document that clearly showed the addresses of the 35 residential properties that it
                 said were excavated.

                 In Removal Site Evaluations8 conducted in 2001 and 2002, several properties
                 were identified with lead contamination. Test results for samples taken from the
                 surface soil on these properties were over the action level of 400 mg/kg and met
                 EPA’s criteria for a removal.9 Of these properties, nine had no documentation as
                 to what action, if any, took place after the lead contamination was identified.
                 Documentation was also unavailable for an additional property. Soil samples
                 taken at that property showed lead contamination over the action level, but it was
                 not identified as contaminated in EPA’s report. We asked Region 7 at least 10
                 times over a 6-month time period for information or documentation to clarify the
                 actions taken during the 2001–2002 Time-Critical Removal. We were told that the
                 region was trying to locate documentation. Without that documentation, EPA
                 Region 7 staff said they could not confirm what actions took place to address the
                 lead contamination on these properties. According to the EPA OSC for the site,
                 all lead contamination at or above the action level of 400 mg/kg in the surface
                 layer of the soil was excavated.

                 Using the EPA Removal Action Summary Report,10 we compiled a list of the
                 properties likely to have been excavated. The list was not conclusive and did not
                 contain all properties listed in Removal Site Evaluations as exceeding the action
                 level for lead contamination. We found that some of the properties initially
                 identified as at or above the action level for lead contamination during EPA’s
                 Removal Site Evaluations were not noted as excavated in the Removal Action
                 Summary Report. Given this discrepancy, we requested confirmation from
                 Region 7 on the accuracy and completeness of our list as well as EPA’s Removal
                 Action Summary Report.

                 Region 7 stated that it needed all logbooks and original field sheets from the site
                 to answer our questions, confirm the number of properties excavated, and provide
                 property addresses. Many pages of field notes were already electronically scanned
                 into the Removal Action Summary Report. However, not all of the properties
                 listed had corresponding field notes. EPA Region 7 staff stated the field notes for
                 these properties would be in the logbooks for the site. Region 7 informed OIG in
                 December 2012 and again a few weeks prior to our planned issuance date that it
                 had located the information it needed.

8
  Removal site assessment activities focus on demonstrating whether the conditions at the site meet the National
Contingency Plan criteria for a removal action. The removal assessment is designed to show if, and how, the site
poses a threat to human health or the environment. For this site, the assessments were performed by the KDHE
Bureau of Environmental Remediation as part of a cooperative agreement with EPA.
9
  According to EPA’s Action Memo for the site, residential property where the soil contains lead concentrations
equal to or greater than 400 mg/kg will be included in the removal action.
10
   The Removal Action Summary Report documents the removal activities that were performed by EPA and its
contractors at the site. The report also describes the procedures used to complete removal activities.


13-P-0207                                                                                                          6
            In March 2013, subsequent to the draft report, OIG received a package from
            Region 7 containing 10 logbooks with EPA staff and contractor’s hand-written
            notes. Region 7 also provided new information about the removal action as well as
            responses to OIG questions sent in October 2012 and February 2013. The new
            information included a list of 35 properties Region 7 said were excavated and a list
            of 31 properties sampled but not excavated. Region 7 pointed out that a drainage
            ditch was excavated during the removal action. According to the Removal Action
            Summary Report, the ditch was excavated 3 to 6 inches.

            OIG reviewed all of the logbook references and new information provided.
            However, we still could not confirm that EPA identified and removed all
            contamination presenting an imminent and substantial endangerment to the public
            at this site during its removal action. While Region 7’s logbook references and new
            information provided additional details on the status of 14 properties, we were
            unable to verify the actions taken at 11 of the 14 properties. Furthermore, there
            were inconsistencies in the new information provided. The excavated properties, as
            well as other sampled but not excavated properties were not fully supported by
            documentation in the site records. For example, 2 properties listed as excavated did
            not have post-excavation data. Region 7 also said that it included the excavation of
            one property with another property and listed both properties as a single property
            on its list of excavated properties. We reviewed the justification provided for these
            properties and could not reconcile it with site records. In addition, 5 properties on
            Region 7’s list of properties sampled but not excavated do not appear in the
            Removal Action Summary Report or Removal Site Evaluations.

            In contrast to Region 7 positions stated early in our review, in a document sent
            February 28, 2013, the region said that all properties with contamination at or
            above the action level were not excavated. According to Region 7, there were five
            residential properties where the OSC discussed sample results with the property
            owner and KDHE and determined no soil would be excavated. For these
            properties, a total of five to six samples were collected and, depending on the
            property, results for as many as three of the samples collected at each property
            showed lead contamination at or above the action level. Region 7 referred the
            OIG to logbook entries on certain dates for discussions with KDHE and the
            property owner regarding no further action at the location in question.

            Using Region 7’s logbook references, we could not confirm the activities at these
            properties. The logbook references for these properties are limited and include
            only a sentence or two about a discussion with an individual at the property
            address and a sentence or two on discussions with KDHE. Discussions with
            KDHE only provide street names rather than specific property addresses. In the
            site files and logbook references Region 7 provided, we did not find signed
            documentation or conclusive evidence to verify the property owner agreement to
            take no further action where contamination was found at or above the action level
            in some but not all samples. In addition, the Removal Action Summary Report,




13-P-0207                                                                                     7
                  Removal Site Evaluations, and pollution reports for the site contain no mention of
                  these discussions with property owners or KDHE.

                  Region 7 also explained that some discrepancies between the Removal Action
                  Summary Report and Removal Site Evaluations for six properties with
                  contamination at or above the action level could be resolved by address
                  clarifications or property boundary adjustments. We reviewed the logbook
                  references, site records and Region 7’s explanations for these six properties. We
                  were unable to verify the excavation status for five of the six properties.

EPA Cannot Provide Assurance Its Sampling Followed
Proper Procedures

                  We reviewed EPA’s sampling documentation for the 2001–2002 Time-Critical
                  Removal Action and found EPA’s records were incomplete. Field notes necessary
                  to verify that samples were properly collected were not available for all
                  properties. Site records were not maintained in accordance with EPA policies and
                  requirements for a removal action. EPA requirements included creating and
                  following a site-specific QAPP. The QAPP for this site called for maintaining a
                  field logbook to record all pertinent activities associated with sampling events.
                  Information pertaining to all samples (i.e., sampling dates/times, locations, etc.)
                  collected during this removal action was to be recorded on sample field sheets. An
                  EPA record keeping policy11 requires the sampling and analysis data to be
                  retained permanently.

                  In our initial review, we found that nine residential properties lacked required
                  field sheet documentation in the Removal Action Summary Report. We asked
                  Region 7 at least 10 times over a 6-month period for the documents. The region
                  was unable to provide documentation for all nine properties. In the new
                  information and references Region 7 provided, it did not specifically identify
                  where to find supporting documentation that was not present in the Removal
                  Action Summary Report. Based on the new information and references that were
                  provided, we were able to confirm supporting documentation for one of the nine
                  properties. However, with the new information, we found seven additional
                  properties without supporting documentation. Without complete documentation
                  for these 15 properties, we cannot confirm that sample procedures were followed
                  and that all properties with occurrences of lead contamination at or above the risk-
                  based action level of 400 mg/kg were identified.

                  We also reviewed the process used by EPA to determine the sampling boundaries
                  for the removal action at this site. We found a residential property that may not
                  have been sampled. The OSC has discretion in determining how the site will be
                  evaluated. However, the QAPP states that if the results of the screening
                  characterization indicate that surface soil contamination exists (i.e., lead

11
     EPA Records Schedule 013.


13-P-0207                                                                                             8
            concentrations greater than 400 mg/kg) beyond the specified limits of the site
            area, further sampling would be conducted using the same sampling design. The
            QAPP further states the OSC shall record deviations in the site logbook as
            necessary. The property we identified was located adjacent to another
            contaminated property. Subsequent to the issuance of the draft report, Region 7
            stated that this property was not excavated. It said KDHE collected a sample
            during the Removal Site Evaluation. The corresponding site sketch for this
            property provided three sample locations. One of the three sample results was
            over the action level of 400 mg/kg. No logbook references or other explanations
            were provided by Region 7 on why no action was taken at this property to address
            the contamination identified.

Conclusion
            EPA stated in its records for the National Zinc Company site that the actual
            release of a hazardous substance (lead), if not addressed, presented an imminent
            and substantial endangerment to the health of the public that came into contact
            with the site and to public welfare and the environment. Without necessary and
            required documentation, which despite repeated requests to Region 7 could not be
            produced, neither we nor EPA can confirm that EPA identified and removed all
            contamination presenting an imminent and substantial endangerment to the public
            at this site during its removal action. As a result, we cannot confirm or dismiss the
            allegations of the hotline complaint. Lead poisoning can cause a number of
            adverse human health effects, and is particularly detrimental to the neurological
            development of children. Without additional documentation to demonstrate that
            risks to human health have been addressed, EPA will need to take further actions.
            EPA and other parties will likely incur additional costs to provide assurance that
            imminent and substantial endangerment to public health has been addressed at the
            National Zinc Company site. When risks rise to the level of imminent and
            substantial endangerment to public health, welfare, and the environment, EPA’s
            ability to quickly and clearly produce the records to show that those risks were
            addressed should be uncomplicated, regardless of the age of the records.

Recommendations
            We recommend that the Regional Administrator, Region 7:

               1. 	 Review all site records, including logbooks, to determine whether all
                    imminent and substantial endangerment to public health at the National
                    Zinc Company site was identified and addressed. To support the region’s
                    determination:

                       a. 	 Revise or prepare an addendum to the Removal Action Summary
                            Report. Provide any logbook pages, field sheets, site sketches,
                            corrections, and any other missing documentation needed to




13-P-0207                                                                                       9
                           provide a complete and accurate account of all properties
                           identified, addressed and excavated during the removal action.

                       b. 	 Fully document and timely communicate any actions taken in
                            response to issues identified in this report to the public.

               2. 	 As needed, work with KDHE to ensure appropriate action is taken to
                    respond to any imminent and substantial endangerment to public health at
                    the National Zinc Company site.

               3. 	 Document the costs to develop and implement the actions in
                    recommendations 1 and 2.

Agency Response and OIG Evaluation
            In response to our draft report, Region 7 stated that it addressed all imminent and
            substantial endangerment at residential properties that met the removal action
            criteria, as identified in EPA’s Action Memo during the 2001–2002 Time-Critical
            Removal Action. It stated that under an existing consent order the State of Kansas
            has with the responsible parties, there is already a mechanism in place to address
            any future imminent and substantial endangerment at the site. The region agreed it
            was unable to meet our October 2012 deadline for providing additional
            documentation and resolving questions at the site. It said that because it was in the
            process of a major move to a new facility it did not have access to the documents
            needed to meet the OIG deadline.

            In March 2013, we received 10 logbooks from Region 7. Region 7 acknowledged
            that copies of the logbooks provided to the OIG should have been included as
            appendices to the EPA Removal Action Summary Report. We reviewed the new
            information from Region 7 and checked the logbook references provided. We
            made changes to the final report where appropriate. Additional documentation is
            still needed to provide assurance and evidence of the scope of EPA’s 2001–2002
            removal actions. Based on the amount of documentation missing over the course
            of this evaluation and the inconsistencies we have identified between the Removal
            Action Summary Report, pollution reports, logbooks, and Removal Site
            Evaluations, we cannot determine whether there may be even more corrections
            needed to the site record. As a result, we clarified our first recommendation.
            Region 7 stated that it was still in disagreement with the recommendation, as
            clarified.

            In its response to the second recommendation in our draft report, Region 7 said
            that it would rely on the existence of a consent order between the State of Kansas
            and the responsible parties to address imminent and substantial endangerment to
            public health at the National Zinc Company site. However, the existing consent
            order would not preclude Region 7 from taking action at the site, if needed.
            Moreover, Kansas would need additional information from Region 7 to determine


13-P-0207                                                                                     10
            whether action is needed to prevent imminent and substantial endangerment on
            properties initially listed as sampled and/or addressed through EPA’s 2001–2002
            removal actions. Action needed could include the re-sampling of properties where
            documents in the site record do not fully confirm Region 7’s removal activities
            and/or the excavation of properties with contamination at or above the action
            level. We clarified this recommendation to ask Region 7 to work with Kansas to
            ensure any appropriate action needed is taken. Region 7 stated that it was in
            agreement with the recommendation, as clarified, but did not provide a timeline
            for its corrective actions. The corrective actions would depend on the outcome of
            the region’s response to recommendation 1.

            Before our final report was issued, Region 7 changed its position on
            recommendation 3. The region said that it is in agreement with this
            recommendation. However, it did not provide a timeline for its corrective actions
            planned in response to the recommendation.

            Region 7 noted that as a result of the information we found missing from EPA’s
            electronic and hard copy files for the site, it is taking steps to make sure that
            future pollution reports contain addresses of properties excavated as well as a
            clear description of all work that was done at the site. The region will also check
            that files for future sites contain scanned versions of documents necessary to
            support the work performed.




13-P-0207                                                                                     11
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                         Subject                         Status1      Action Official           Date      Amount      Amount

     1          9   Review all site records, including logbooks, to         U      Regional Administrator,
                    determine whether all imminent and substantial                       Region 7
                    endangerment to public health at the National Zinc
                    Company site was identified and addressed. To
                    support the region’s determination:
                       a. Revise or prepare an addendum to the
                          Removal Action Summary Report. Provide
                          any logbook pages, field sheets, site
                          sketches, corrections, and any other
                          missing documentation needed to provide a
                          complete and accurate account of all
                          properties identified, addressed and
                          excavated during the removal action.
                       b. Fully document and timely communicate
                          any actions taken in response to issues
                          identified in this report to the public.

     2     10       As needed, work with KDHE to ensure appropriate         U      Regional Administrator,
                    action is taken to respond to any imminent and                       Region 7
                    substantial endangerment to public health at the
                    National Zinc Company site.

     3     10       Document the costs to develop and implement the         U      Regional Administrator,
                    actions in recommendations 1 and 2.                                  Region 7




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0207                                                                                                                                   12
                                                                                                Appendix A

              EPA Region 7 Comments to Draft Report
                       and OIG Evaluation
                                              February 6, 2013

MEMORANDUM

SUBJECT:                 Response to Office of Inspector General Draft Project No. OPE-FY12-0021
                         “Review of Hotline Complaint Regarding Residential Soil Contamination in
                         Cherryvale, Kansas,” dated January 22, 2013

FROM:                    Karl Brooks
                         Regional Administrator

TO:                      Carolyn Copper
                         Assistant Inspector General for Program Evaluation


Thank you for the opportunity to review the subject report. Following is a summary of Region 7’s overall
position, Region 7’s position on each report recommendations, and an attachment of factual inaccuracies
and technical comments.

Region 7’s Overall Position

Region 7 addressed all imminent and substantial endangerment at residential properties that met the
removal action criteria, as identified in EPA’s Action Memo during its 2001-2002 time critical removal
action.


OIG Response 1: The OIG disagrees with Region 7’s unsupported assertion that all imminent and
substantial endangerment at residential properties was addressed. The files needed to confirm all
properties that should have been subject to the removal are not included in the electronic and hard copy
files for the site. Region 7 told us in December 2012 and again in February 2013 that it had located the
documents that would allow the region to respond to our questions and provide information on the
removal action. On February 28, 2013, Region 7 provided a list of excavated residential sites and a list of
sampled sites not excavated. It also provided references to additional information. On March 5, 2013, the
OIG received 10 logbooks from Region 7 with hand-written site notes. While this information provides
additional details on EPA actions at the site, it did not completely address the issues identified in our draft
report and is not sufficient to confirm the removal activities identified and addressed all contamination at
or above the action level. We cannot dismiss the possibility that contamination existing at the site during
the 2001–2002 Time-Critical Removal Action may not have been fully identified and/or addressed.

Under an existing consent order the State of Kansas has with the responsible parties, there is already a
mechanism in place to address any future imminent and or substantial endangerment at the site.




13-P-0207                                                                                                   13
OIG Response 2: We clarified this recommendation to acknowledge that EPA will need to work with the State
of Kansas to ensure that any needed action is taken. We could not find any provisions in the existing consent
order that would prohibit EPA from taking action to address contamination at the site if necessary. Moreover,
KDHE is operating under the premise that EPA’s 2001–2002 removal action was properly completed. At this
time, the documents Region 7 has provided to us for review are neither an accurate nor a complete account of
the removal action activities. Therefore, KDHE would not have the information necessary to determine what
additional actions to protect public health, if any, would be required at properties included in EPA’s 2001–2002
removal action. Region 7 agreed with the recommendation, as clarified.

Region 7 provided OIG with documentation to support the excavation of residential properties in
Cherryvale, Kansas. OIG compiled a list 35 excavated properties. Region 7 agrees it was unable to meet
OIG’s October 31, 2012, deadline for providing additional supporting documentation to resolve questions
related to 9 additional residential addresses. Region 7 was in the process of a major move to a new facility
in Lenexa, Kansas, and did not have access to the documents to meet the OIG’s established deadline.

OIG Response 3: OIG was able to compile a list of properties likely to have been excavated from the Removal
Action Summary Report. However, we acknowledged that our list did not include all properties that tested
above the action level during the Removal Site Evaluations. We asked Region 7 to confirm that this list was
correct. We also asked for an explanation of what actions, if any, were taken at the properties identified with
contamination above the action level in the Removal Site Evaluations. These properties met the criteria for
EPA’s removal action and, if unaddressed, present an imminent and substantial endangerment to public health.

Despite the regional office move, there were at least 10 opportunities over a 6-month period for Region 7 staff
to locate the requested documentation. We have an email from regional staff which shows that the original
request for the documents from the OSC to the records center was made in August 2012. After the region did
not meet our October 31, 2012, deadline for providing the information, we informed regional staff that we
would review the information if it turned up before the end of our assignment. In December 2012, we received
an email from the audit liaison stating that Region 7 has begun “sifting” through the documents but it would
take some time.

During our exit conference on February 13, 2013, regional staff clarified that messages sent to us in September
regarding the accessibility of the documents were incorrect. The regional staff further clarified that the boxes
containing the logbooks were found on December 18, 2012. On February 28, the region added to its
clarifications that an additional 127 boxes of documents that cover the National Zinc Site were located on
November 7. The region indicated it started its review of the documents on January 8, 2013.

On February 28, 2013, Region 7 sent OIG additional information on the removal action in an email. On March
5, 2013, OIG received photocopies of 10 hand-written logbooks from Region 7. The information contained a
list of properties excavated and sampled. The region explained that some properties with one or more samples
testing at or above the action level were not excavated. In these cases, the region provided hand-written notes
that it said documented that property owners agreed to no action.

OIG reviewed the new information and supporting references provided by Region 7. While the region has
provided additional details about the removal action, the additional information provided did not completely
address the issues identified in our draft report. There are still inconsistencies and gaps in the site record and
supporting documents provided by the region, particularly in the Removal Action Summary Report. As a result,
we cannot confirm the removal action properly identified and addressed all contamination at or above the action
level at the site. The region had several opportunities to provide this information in response to our January 22,
2013, draft report and will have another opportunity to provide the information in its response to this final
report.



13-P-0207                                                                                                14
Region 7’s Response to Report Recommendations
Disagreements

No.         Recommendation                      Agency Explanation/Response                  Proposed
                                                                                             Alternative
1.          Develop and implement a plan        Region 7 disagrees with this                 Not needed.
            to determine whether there is an    recommendation as a plan is already in
            imminent and substantial            place.
            endangerment to the public
            health at the National Zinc         Region 7 addressed all imminent and
            Company site and fully              substantial endangerment at residential
            document and timely                 properties that met the removal action
            communicate this plan to the        criteria, as identified in EPA’s Action
            public.                             Memo during its 2001-2002 time critical
                                                removal action.

                                                The Kansas Department of Health and
                                                Environment addressed contamination at
                                                the smelter property pursuant to an April
                                                2003 consent order with two responsible
                                                parties.

                                                Under this existing consent order, the
                                                Kansas Department of Health and
                                                Environment works with the responsible
                                                parties to address any future imminent and
                                                substantial endangerment to public health
                                                that may be identified.

2.          As needed, take appropriate         No Region 7 action is needed.                Not needed.
            action to respond to imminent
            and substantial endangerment to     Pursuant to an existing consent order, the
            public health at the National       Kansas Department of Health and
            Zinc Company site.                  Environment works with the responsible
                                                parties to address any imminent and
                                                substantial endangerment to public health
                                                that may be identified.

3.          Document the costs to develop       No action is needed.                         Not needed.
            and implement the actions in
            recommendations 1 and 2.            Any future response actions will be
                                                addressed under the Kansas Department
                                                of Health and Environment consent order
                                                by the responsible parties.




13-P-0207                                                                                      15
OIG Response 4: OIG disagrees with Region 7’s proposed actions in response to the recommendations.
Neither OIG nor the region has, at this time, the information necessary to confirm whether all imminent
and substantial endangerment to public health at the site was properly identified and addressed. Based on
the amount of documentation missing over the course of this evaluation and the inconsistencies we have
identified between the Removal Action Summary Report, pollution reports, logbooks, and Removal Site
Evaluations, we cannot determine whether there may be even more corrections needed to the site record.
There is an existing consent order between the State of Kansas and the potentially responsible parties at
this site, but EPA should continue to be involved and ensure that any actions necessary to address
imminent and substantial endangerment to public health at this site are taken.

As a result of Region 7’s response and new information received in March 2013, we clarified
recommendations 1 and 2 and held a second exit conference with Region 7 on March 22, 2013. In
response to the revised recommendations, Region 7 disagreed with the clarification to recommendation 1.
It said that it has retrieved and reviewed the site records, including log books, field sheets, and site
sketches. Region 7 maintains that it addressed all imminent and substantial endangerment at residential
properties that met the removal action criteria, as identified in EPA’s Action Memo during its 2001–2002
removal action. However, Region 7 said that it would reformat the information to substantiate its position
for inclusion in the site file.

Region 7 agreed with the clarification to recommendation 2. It said that the revised recommendation 2 is
its standard practice and that, in accordance with the National Contingency Plan, Region 7 will continue
to coordinate with state counterparts. Region 7 also said that it now agrees with recommendation 3.
However, it did not provide an estimated completion date for these recommendations. Therefore,
recommendations 1, 2, and 3 are unresolved with resolution efforts in progress.


Contact Information

If you have any questions regarding this response, please contact Kathy Finazzo, Region 7 Audit Follow-
up Coordinator, 913-551-7833.




13-P-0207                                                                                               16
                                                                            Appendix B

                                   Distribution
Office of the Administrator
Regional Administrator, Region 7
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Assistant Administrator, Office of Solid Waste and Emergency Response
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Region 7




13-P-0207                                                                           17
